No.

In The
Supreme Court of the United States
•
SHANIZ WEST,
Applicant,
v.
CITY OF CALDWELL; CITY OF CALDWELL POLICE DEPARTMENT;
FORMER CHIEF CHRIS ALLGOOD, DOUG WINFIELD, Sergeant, in his
official and individual capacity; ALAN SEEVERS; MATTHEW
RICHARDSON,
Respondents.

•
PROOF OF SERVICE
•
To the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
and Circuit Justice for the Ninth Circuit
I, Christopher Brown, do swear or declare that on this date, the I '1 day of
November, 2019, as required by Supreme Court Rule 29, I have served the enclosed
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by hand delivering an envelope containing
the above documents within 3 calendar days.
The names and addresses of those served are as follows:

Bruce Castleton
Landon Brown
Naylor Hales — Attorney for Respondents
950 W. Bannock Street, Ste. 610
Boise, Idaho 83702
208-383-9511
bruce@navlorhales.com
landon@navlorhales.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on November /1/, 2019.
Respectfully submitted,
C

C ristopher Brown
Attorney

2

